GR-40-98-011
U.S. DEPARTMENT OF JUSTICE
 

Audit Report
 
Office of Community Oriented Policing Services
Grants to the Talladega, Alabama, Police Department
 
GR-40-98-011
April 1998
 
 

EXECUTIVE SUMMARY
 
The Office of the Inspector General, Audit Division, has completed an audit of three
grants awarded by the U.S. Department of Justice, Office of Community Oriented Policing
Services (COPS), to the Talladega, Alabama, Police Department (TPD). The TPD received
grants of $333,959 to hire or rehire six additional sworn law enforcement officers under
the Funding Accelerated for Smaller Towns (FAST) program and the Universal Hiring Program
(UHP), and a grant of $58,000 to redeploy 3.9 officer full-time equivalents (FTEs) under
the Making Officer Redeployment Effective (MORE) program. The purpose of the extra
officers is to enhance community policing efforts.
In brief, our audit determined that the TPD:
 


- claimed $9,730 in excess reimbursements under the MORE grant.
- had not hired any of the six officers funded by the FAST and UHP grants. Therefore,
    $333,959 could be put to better use. 
- redeployed only .3 of the officer FTEs funded by the MORE grant into community
    policing. Therefore, $42,740 could be put to better use.
- had not developed a formal plan to maintain the redeployment of officers.
- did not submit some monitoring reports to COPS and the Office of Justice Programs
    (OJP), submitted other monitoring reports late, and incorrectly reported total program
    outlays and the Federal share of outlays to OJP.


 
#####